IN THE SUPREME COURT OF THE UNITED STATES

MARSHALL, JOHN M., ET AL.
Petitioner
vs.

No:

19-0969

COMMISSIONER OF INTERNAL REVENUE
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
February 07, 2020
cc:

See Attached List

ROBERT J. CHICOINE
ROBERT CHICOINE LAW
66 S. HANFORD STREET
SUITE 300
SEATTLE, WA 98134
DEVRA R. COHEN
FOSTER GARVEY PC
1111 THIRD AVENUE
SUITE 3000
SEATTLE, WA 98101
ROBERT C. WEAVER
FOSTER GARVEY PC
121 SW MORRISON STREET
STE. 1100
PORTLAND, OR 97204
MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004

